APPENDIX

INDEX TO APPENDICES
Opinion in the United States Court of Appeals
for the Eleventh Circuit
(February 4, 2020) ................................................................................................ App. 1
Judgment in the United States Court of Appeals
for the Eleventh Circuit
(February 4, 2020) .............................................................................................. App. 15
Order in the United States District Court for the Southern
District of Florida
(April 23, 2018)
.............................................................................................. App. 16

i

Case: 18-12643

Date Filed: 02/04/2020

Page: 1 of 14

[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-12643
________________________
D.C. Docket Nos. 0:18-cv-60138-BB; 0:16-cr-60239-BB-4

NIGEL CHRISTOPHER PAUL MARTIN,
Petitioner - Appellant,
versus
UNITED STATES OF AMERICA,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(February 4, 2020)
Before ROSENBAUM and TJOFLAT, Circuit Judges, and PAULEY,* District
Judge.
PAULEY, District Judge:
Honorable William H. Pauley III, Senior United States District Judge for the Southern
District of New York, sitting by designation.
*

App. 1

Case: 18-12643

Date Filed: 02/04/2020

Page: 2 of 14

Nigel Christopher Paul Martin, a citizen of Jamaica, appeals from the district
court’s denial of his habeas petition. On appeal, Martin argues that the district court
abused its discretion in denying his claim without holding an evidentiary hearing.
Specifically, Martin claims that he would not have pled guilty to access device fraud
and aggravated identity theft but for his counsel’s erroneous advice concerning the
deportation consequences of his plea. We affirm the ruling of the district court.
I. FACTUAL BACKGROUND
In December 2016, a federal grand jury charged Martin with conspiracy to
commit access device fraud, 18 U.S.C. § 1029(b)(2) (“Count One”), access device
fraud, 18 U.S.C. § 1029(a)(2) (“Count Two”), and aggravated identity theft, 18
U.S.C. § 1028A(a)(1) (“Count Nine”). The superseding indictment alleged that
Martin and his co-defendants were involved in a scheme to make unauthorized credit
card purchases at retail stores using credit card accounts issued to other individuals.
Martin pled guilty to Counts Two and Nine pursuant to a plea agreement. As
relevant here, that plea agreement included a provision explaining the potential
immigration consequences of the plea. Martin acknowledged that “[r]emoval and
other immigration consequences are the subject of a separate proceeding” and that
“no one, including the defendant’s attorney or the Court, can predict to a certainty
the effect of the defendant’s conviction on the defendant’s immigration status.”
Martin also affirmed in the plea agreement that he wished to plead guilty “regardless
2
App. 2

Case: 18-12643

Date Filed: 02/04/2020

Page: 3 of 14

of any immigration consequences,” including “automatic removal from the United
States.”
During his allocution, the district court asked Martin whether he fully
discussed the charges with his attorney, whether he was satisfied with his attorney’s
representation of him, and whether he had read and understood the plea agreement.
Martin answered each inquiry in the affirmative. Three times he confirmed that no
one made any promises or assurances of any kind, other than what was set forth in
the plea agreement. The district court then asked Martin about his understanding of
the immigration consequences of his plea:
THE COURT: Have you and [your attorney] discussed the immigration
consequences of your guilty plea?
THE DEFENDANT: Yes, Your Honor.
THE COURT: And you understand, sir, that if you are not a citizen of the
United States, in addition to the other possible penalties you are facing, a
plea of guilty may subject you to deportation, exclusion, or voluntary
departure and prevent you from obtaining United States citizenship?
THE DEFENDANT: Yes, Your Honor.
At the time he executed the plea agreement and pled guilty, Martin also signed
a factual proffer. That proffer summarized facts the government would have proven
beyond a reasonable doubt had the case gone to trial. Specifically, on March 21,
2016, Martin made an unauthorized purchase of $782 from Home Depot using a
Capital One credit card. On March 29, 2016, Martin completed an unauthorized
3
App. 3

Case: 18-12643

Date Filed: 02/04/2020

Page: 4 of 14

telephone payment transaction for $369.94 from Home Depot. And on April 18,
2016, Martin assisted co-defendants in loading fraudulently purchased items into a
vehicle. The proffer also asserted that the fraud loss resulting from the overall
scheme was in excess of $200,000. During his allocution, Martin confirmed that the
proffer was correct.
The Pre-Sentence Investigation Report (“PSR”) calculated Martin’s total
offense level for access device fraud to be 13. The 10-level enhancement for a loss
of more than $150,000 but less than $250,000 pursuant to U.S.S.G. § 2B1.1(b)(1)(F)
was based on a finding that the aggregate loss attributable to all of the coconspirators was “approximately $200,000” in a scheme running from November
2015 to August 2016.
Martin’s counsel objected to the loss amount calculation and the 10-level
enhancement. He argued that Martin was only responsible for approximately $1,000
because he did not plead guilty to the conspiracy charge.
At sentencing, the government contended that the PSR properly calculated the
fraud loss amount at approximately $200,000 because Martin was jointly and
severally liable as an aider and abettor.

The district court agreed with the

government, overruled Martin’s objection, and determined that Martin’s guideline
range was 12 to 18 months’ imprisonment on the access device fraud charge,
followed by a mandatory consecutive term of 24 months’ imprisonment on the
4
App. 4

Case: 18-12643

Date Filed: 02/04/2020

aggravated identity theft charge.

Page: 5 of 14

Accordingly, Martin’s exposure under the

Sentencing Guidelines was 36 to 42 months’ imprisonment.
The government moved for a downward departure under U.S.S.G. § 5K1.1
because of Martin’s substantial assistance. The government also argued that Martin
was “the least culpable” in the scheme. The district court granted a downward
departure and sentenced Martin principally to 12 months’ imprisonment on each
count to be served concurrently. The district court deferred fixing the amount of
restitution pending a “final determination of the victims’ losses.” Later, the district
court issued an amended judgment of conviction, ordering restitution in the amount
of $153,419.13 joint and several with Martin’s co-defendants.
In January 2018, Martin moved to vacate his sentence under 28 U.S.C. § 2255.
He alleged that his attorney provided ineffective assistance of counsel because he
(1) failed to advise Martin that deportation was mandatory for an aggravated felony
conviction, (2) advised him that the loss amount would be less than $10,000, and (3)
assured him that his sentence would be less than one year of imprisonment. Martin
now claims that he would not have pled guilty had he known that he would be subject
to mandatory deportation.
The district court denied Martin’s habeas petition without holding an
evidentiary hearing. The district court found that Martin’s claims of deficient
performance were contradicted by his “statements under oath at the plea colloquy.”
5
App. 5

Case: 18-12643

Date Filed: 02/04/2020

Page: 6 of 14

Further, the district court noted, “even assuming, without deciding,” that erroneous
representations were made to Martin, he could not establish prejudice. By signing
the plea agreement and confirming his statements under oath during the allocution,
Martin “understood that his guilty plea could subject him to immigration
consequences, including removal, and that no one, including his attorney, could
predict exactly the loss amount or the sentence to be imposed at the time of the plea.”
We granted a certificate of appeal on the issue of whether the district court
abused its discretion in denying—without an evidentiary hearing—Martin’s claim
that, but for his counsel’s erroneous advice concerning the deportation consequences
of his guilty plea, he would not have pled guilty.
II. DISCUSSION
A.

Ineffective Assistance of Counsel
We review legal conclusions de novo and factual findings for clear error in a

§ 2255 proceeding. Osley v. United States, 751 F.3d 1214, 1222 (11th Cir. 2014).
A claim of ineffective assistance of counsel is a mixed question of law and fact
reviewed de novo. Id. We can affirm on any basis supported by the record,
regardless of whether the district court decided the case on that basis. Lucas v. W.W.
Grainger, Inc., 257 F.3d 1249, 1256 (11th Cir. 2001).
To prevail on an ineffective assistance of counsel claim, a petitioner must
show (1) his counsel’s performance was deficient and (2) the deficient performance
6
App. 6

Case: 18-12643

Date Filed: 02/04/2020

Page: 7 of 14

prejudiced his defense. Strickland v. Washington, 466 U.S. 668, 687 (1984). For
deficient performance, a petitioner must demonstrate that his counsel’s
representation “fell below an objective standard of reasonableness.” Id. at 688. And
for prejudice, a petitioner must establish “a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been
different.” Padilla v. Kentucky, 559 U.S. 356, 366 (2010) (quoting Strickland, 466
U.S. at 694). In the context of a guilty plea, a petitioner must demonstrate that “there
is a reasonable probability that, but for counsel’s errors, he would not have pleaded
guilty and would have insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52, 59
(1985). “Surmounting Strickland’s high bar is never an easy task, and the strong
societal interest in finality has special force with respect to convictions based on
guilty pleas.” Lee v. United States, 137 S. Ct. 1958, 1967 (2017) (citations and
quotation marks omitted).
Here, the district court assumed, without deciding, that Martin’s attorney’s
performance was deficient. The district court then concluded that Martin could not
demonstrate prejudice under the second prong of the Strickland test. As discussed
below, we decline to assume that counsel’s performance was deficient.
In Padilla, the Supreme Court held that the Sixth Amendment right to
effective assistance of counsel requires counsel to “inform her client whether his
plea carries a risk of deportation.” Padilla, 559 U.S. at 374. Immigration law is
7
App. 7

Case: 18-12643

Date Filed: 02/04/2020

Page: 8 of 14

complex, and “[w]hen the law is not succinct and straightforward . . . , a criminal
defense attorney need do no more than advise a noncitizen that pending criminal
charges may carry a risk of adverse immigration consequences.” Id. at 369. “But
when the deportation consequence is truly clear,” counsel has a “duty to give correct
advice.” Id.
The Immigration and Nationality Act provides that “[a]ny alien who is
convicted of an aggravated felony at any time after admission is deportable.” 8
U.S.C. § 1227(a)(2)(A)(iii). An “aggravated felony” includes “an offense that–
involves fraud or deceit in which the loss to the victim or victims exceeds $10,000.”
8 U.S.C. § 1101(a)(43)(M)(i). Martin argues that his counsel failed to advise him
that deportation was mandatory for an aggravated felony conviction. He also claims
that his counsel informed him that the loss amount would be less than $10,000, the
threshold under § 1101(a)(43)(M)(i). 1 Therefore, Martin alleges that his counsel
performed deficiently.
We disagree. In pleading to access device fraud and aggravated identity theft,
Martin did not conclusively plead to an aggravated felony. In contrast to offenses
like trafficking in a controlled substance, these convictions, on their face, do not
make deportation “presumptively mandatory.” Padilla, 559 U.S. at 369; see also 8

1

Martin’s claim that his counsel assured him that his term of imprisonment would be less
than a year does not bear on the aggravated felony question and we need not address it.
8
App. 8

Case: 18-12643

Date Filed: 02/04/2020

Page: 9 of 14

U.S.C. § 1227(a)(2)(B)(i) (“Any alien who at any time after admission has been
convicted of a violation of . . . any law . . . relating to a controlled substance . . . is
deportable.”); Hernandez v. United States, 778 F.3d 1230, 1233 (11th Cir. 2015).
This is not an instance in which “the terms of the relevant immigration statute are
succinct, clear, and explicit in defining the removal consequence” for Martin’s
conviction. Padilla, 559 U.S. at 368.
Because of the uncertainty, Martin’s counsel was required to advise him only
that his pending criminal charges may carry a risk of adverse immigration
consequences. Determining what constitutes an aggravated felony can be a difficult
task. See id. at 378 (Alito, J., concurring) (“Defense counsel who consults a
guidebook on whether a particular crime is an ‘aggravated felony’ will often find
that the answer is not ‘easily ascertained.’”). This is normally an inquiry reserved
for immigration proceedings. In Nijhawan v. Holder, the Supreme Court held that
immigration courts must apply a “circumstance-specific approach” to determine if a
fraud offense involves loss to victims in excess of the $10,000 threshold under
§ 1101(a)(43)(M)(i). 557 U.S. 29, 38-40 (2009). Such an approach requires
immigration courts to “look to the facts and circumstances underlying an offender’s
conviction.” Id. at 34. The Supreme Court also indicated that the fraud loss must
be “tied to the specific counts covered by the conviction,” meaning that it could not
be based on dismissed counts or general conduct. Id. at 42 (quotation marks
9
App. 9

Case: 18-12643

Date Filed: 02/04/2020

Page: 10 of 14

omitted). Accordingly, access device fraud and aggravated identity theft may be
predicate offenses for aggravated felonies—but they may not, depending on the
amount of fraud loss and the underlying factual circumstances.
Martin’s plea agreement noted that “[r]emoval and other immigration
consequences are the subject of a separate proceeding” and that “no one, including
the defendant’s attorney or the Court, can predict to a certainty the effect of the
defendant’s conviction on the defendant’s immigration status.” At his allocution,
Martin acknowledged that he understood the consequences of his plea and the facts
set forth in the proffer. Although the proffer noted that the fraud loss related to the
overall conspiracy was “in excess of $200,000,” Martin did not plead to the
conspiracy charge in Count One. Thus, the total fraud loss was not tethered to the
conduct Martin took responsibility for at his plea. Rather, the proffer indicated that
Martin made unauthorized purchases totaling $1,151.94 in March 2016 and assisted
his co-defendants in April 2016.
At sentencing, the district court considered relevant conduct 2 from jointly
undertaken criminal activity and found Martin jointly and severally responsible for
a loss in excess of $200,000. The government asserted that the fraud loss stemmed
2

Under the Sentencing Guidelines, relevant conduct includes “all acts and omissions
committed [or] aided [and] abetted . . . by the defendant . . . that occurred during the commission
of the offense of conviction . . . ,” as well as, “in the case of a jointly undertaken criminal activity[,]
. . . all acts and omissions of others that were– (i) within the scope of the jointly undertaken
criminal activity, (ii) in furtherance of that criminal activity, and (iii) reasonably foreseeable in
connection with that criminal activity . . . .” U.S.S.G. § 1B1.3(a)(1)(A), (B).
10
App. 10

Case: 18-12643

Date Filed: 02/04/2020

Page: 11 of 14

from conduct between January and June 2016. This was considerably longer than
the time frame Martin acknowledged at his plea. The essence of Martin’s argument
in this respect is that his plea was involuntary because had he known that the district
court would consider other relevant conduct in calculating the fraud loss, thus, in his
view, making it more likely his conviction would ultimately be found to be an
aggravated felony, he would not have pled guilty. But the scope of our review is
limited to the issue specified in the certificate of appeal—that is, whether the district
court abused its discretion in denying Martin’s claim that, but for his counsel’s
erroneous advice concerning the deportation consequences of his guilty plea, he
would not have pled guilty. Murray v. United States, 145 F.3d 1249, 1250-51 (11th
Cir. 1998).
We cannot say that Martin’s counsel’s conduct “falls below the wide range of
competence demanded of lawyers in criminal cases.” Osley, 751 F.3d at 1222.
Martin’s counsel did not have a crystal ball when Martin entered his plea. See Payne
v. United States, 566 F.3d 1276, 1277 (11th Cir. 2009) (“In evaluating an attorney’s
conduct, a court must avoid ‘the distorting effects of hindsight’ and must ‘evaluate
the conduct from counsel’s perspective at the time.’” (quoting Strickland, 466 U.S.
at 689)). Martin’s counsel could not have predicted the district court’s fraud loss
findings. He objected to the findings in the PSR and contested the loss amount at
sentencing. Martin may also have had another opportunity “to contest the amount
11
App. 11

Case: 18-12643

Date Filed: 02/04/2020

Page: 12 of 14

of loss . . . at the deportation hearing itself.” Nijhawan, 557 U.S. at 42. 3 His counsel
could not have predicted how the immigration court would treat that question.
Therefore, we find that Martin’s counsel’s performance was not deficient.
And because we find that Martin has not shown deficient performance, we need not
analyze the prejudice prong of the Strickland test. Strickland, 466 U.S. at 697
(“[T]here is no reason for a court deciding an ineffective assistance claim to
approach the inquiry in the same order or even to address both components of the
inquiry if the defendant makes an insufficient showing on one.”). 4 Consequently,
Martin has failed to satisfy his claim for ineffective assistance of counsel.
B.

Request for an Evidentiary Hearing
We review the district court’s denial of an evidentiary hearing in a § 2255

proceeding for abuse of discretion. Winthrop-Redin v. United States, 767 F.3d 1210,
1215 (11th Cir. 2014). “A district court abuses its discretion if it applies an incorrect

3

We also note that Martin could have timely appealed from the initial judgment of
conviction or the amended judgment fixing the amount of restitution. See United States v. Muzio,
757 F.3d 1243, 1250 n.9 (11th Cir. 2014). He did neither. A direct appeal—while not guaranteed
success—would have been a way to challenge the district court’s restitution determination.
4
Nevertheless, we agree with the district court that Martin has not shown prejudice by
demonstrating a “reasonable probability that, but for counsel’s errors, he would not have pleaded
guilty and would have insisted on going to trial.” Hill, 474 U.S. at 59. Martin’s plea agreement
and sworn statements at his allocution establish that he understood pleading guilty to the charged
offenses carried a possibility of deportation. And he affirmatively represented that he wished to
plead guilty “regardless of any immigration consequences.” Thus, Martin had sufficient notice of
the possibility of removal. Moreover, the government’s application for a downward departure
under U.S.S.G. § 5K1.1 speaks to the efforts by Martin and his attorney to minimize Martin’s
sentencing exposure. Without “contemporaneous evidence to substantiate” Martin’s claims, we
will not “upset a plea solely because of post hoc assertions from a defendant about how he would
have pleaded but for his attorney’s deficiencies.” Lee, 137 S. Ct. at 1967.
12
App. 12

Case: 18-12643

Date Filed: 02/04/2020

Page: 13 of 14

legal standard, applies the law in an unreasonable or incorrect manner, follows
improper procedures in making a determination, or makes findings of fact that are
clearly erroneous.” Citizens for Police Accountability Political Comm. v. Browning,
572 F.3d 1213, 1216-17 (11th Cir. 2009). When a petitioner files a § 2255 motion,
“[u]nless the motion and the files and records of the case conclusively show that the
prisoner is entitled to no relief, the court shall . . . grant a prompt hearing thereon,
determine the issues and make findings of fact and conclusions of law with respect
thereto.” 28 U.S.C. § 2255(b).
“A petitioner is entitled to an evidentiary hearing if he ‘alleges facts that, if
true, would entitle him to relief.’” Winthrop-Redin, 767 F.3d at 1216 (quoting Aron
v. United States, 291 F.3d 708, 715 (11th Cir. 2002)). However, an evidentiary
hearing is not required “if the allegations are ‘patently frivolous,’ ‘based upon
unsupported generalizations,’ or ‘affirmatively contradicted by the record.’” Id.
(quoting Holmes v. United States, 876 F.2d 1545, 1553 (11th Cir. 1989)).
Here, Martin’s allegations of ineffective assistance are contradicted by the
record. In his plea agreement, Martin confirmed that he wished to plead guilty
“regardless of any immigration consequences,” including “automatic removal from
the United States.” At his plea, he affirmed that he fully discussed the charges with
his attorney and was satisfied with his counsel’s representation.

He also

acknowledged signing the factual proffer and confirmed that no one, including his
13
App. 13

Case: 18-12643

Date Filed: 02/04/2020

Page: 14 of 14

attorney, could predict his final sentence. These statements, under oath, are afforded
great weight.

See Blackledge v. Allison, 431 U.S. 63, 74 (1977) (“Solemn

declarations in open court carry a strong presumption of verity.”). Thus, the district
court did not abuse its discretion in denying Martin’s request for an evidentiary
hearing.
III. CONCLUSION
We affirm the district court’s dismissal of Martin’s petition.
AFFIRMED.

14
App. 14

Case: 18-12643

Date Filed: 02/04/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
______________
No. 18-12643
______________
District Court Docket Nos.
0:18-cv-60138-BB; 0:16-cr-60239-BB-4
NIGEL CHRISTOPHER PAUL MARTIN,
Petitioner - Appellant,
versus
UNITED STATES OF AMERICA,
Respondent - Appellee.
__________________________________________
Appeal from the United States District Court for the
Southern District of Florida
__________________________________________
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: February 04, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Jeff R. Patch

App. 15

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 1 of 10

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 18-cv-60138-BLOOM/Valle
NIGEL CHRISTOPHER MARTIN,
v.

Movant,

UNITED STATES OF AMERICA,
Respondent.
_____________________________________/
ORDER
THIS CAUSE is before the Court upon the Motion to Vacate Pursuant to 28 U.S.C.
Section 2255, ECF No. [1] (“Motion”), filed on January 23, 2018 by Movant Nigel Christopher
Martin (“Movant”). On February 28, 2018, the Court entered an order requiring the Government
to show cause why the Motion should not be granted. ECF No. [6]. The Government filed its
response, ECF NO. [7] (“Response”), on March 28, 2018, and Movant filed a reply on April 6,
2018, ECF No. [9] (“Reply”). On April 20, 2018, Movant filed a Motion for Expedited Ruling
on Post-Conviction Motion, ECF No. [10], advising the Court that Movant is “days away from
being deported to his native Jamaica” and “request[ing] that the Court make an expedited ruling
on his case before his actual deportation to Jamaica.” Id. ¶¶ 4–5. The Court has reviewed the
Motion, the memoranda in support and opposition, the record, and is otherwise fully advised.
For the reasons set forth below, the Motion is denied.
I.

FACTUAL BACKGROUND

Movant is a 26 year old native of Jamaica who engaged in a scheme to make
unauthorized credit card purchases at Home Depot through the store’s telephone transaction
system. ECF No. [1] ¶ 8; see also Case No. 16-cr-60238, ECF No. [68] (“Factual Proffer”).

App. 16

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 2 of 10
Case No. 18-cv-60138-BLOOM/Valle
Based on this conduct, on December 6, 2017, Movant was charged, along with three other codefendants, by a superseding indictment on three counts: Count 1, Conspiracy to Commit Device
Fraud under 18 U.S.C. § 1029(b)(2); Count 2, Access Device Fraud under 18 U.S.C. 1029(a)(2);
and Count 9, Aggravated Identify Theft under 18, U.S.C. § 1028(A)(a)(l). ECF No. [1] ¶ 1; see
also Case No. 16-cr-60238, ECF No. [37] (“Superseding Indictment”).
On January 1, 2017, Movant entered into a plea agreement, Case No. 16-cr-60238, ECF
No. [69] (“Plea Agreement”). Pursuant to the Plea Agreement, Movant agreed to plead guilty to
Counts 2 and 9, and the Government agreed to seek dismissal of Count 1 after sentencing. Id.
¶¶ 1–2. Paragraph 10 of the Plea Agreement stated as follows:
The defendant is aware that the sentence has not yet been
determined by the Court. The defendant also is aware that any
estimate of the probable sentencing range or sentence that the
defendant may receive, whether that estimate comes from the
defendant’s attorney, this Office, or the probation office, is a
prediction, not a promise, and is not binding on this Office, the
probation office or the Court.
Id. ¶ 10 (emphasis added). Regarding the potential immigration consequences of Movant’s plea,
Paragraph 16 of the Plea Agreement states:
Defendant recognizes that pleading guilty may have consequences
with respect to the defendant’s immigration status if the defendant
is not a citizen of the United States. Under federal law, a broad
range of crimes are removable offenses, including the offenses to
which defendant is pleading guilty.
Removal and other
immigration consequences are the subject of a separate proceeding,
however, and defendant understands that no one, including the
defendant’s attorney or the Court, can predict to a certainty the
effect of the defendant’s conviction on the defendant’s
immigration status. Defendant nevertheless affirms that the
defendant wants to plead guilty regardless of any immigration
consequences that the defendant’s plea may entail, even if the
consequence is the defendant’s automatic removal from the
United States.

2
App. 17

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 3 of 10
Case No. 18-cv-60138-BLOOM/Valle
Id. at ¶ 16 (emphasis added). At the plea hearing, Movant confirmed under oath that he had read
and understood the Plea Agreement, and that his attorney, Mr. Gibson, had answered all of his
questions regarding the Plea Agreement. See Case No. 16-cr-60238, ECF No. [101] (“Plea Tr.”)
at 4, 21–22. Movant also confirmed under oath that he had read and understood the Factual
Proffer, and he admitted that the facts contained in the Factual Proffer were true, including that
Capital One’s fraud loss related to the scheme was in excess of $200,000. See Case No. 16-cr60238, ECF No. [68] at 2–3; [101] at 21–22; [185] at 19.
During the plea colloquy the Court confirmed that Movant had received no assurances
related to his plea beyond what was set forth in the Plea Agreement:
THE COURT: Has anyone made any promises or assurances of
any kind, other than what is set forth in the Plea Agreement, to
persuade you to enter into it?
THE DEFENDANT: No, Your Honor.
Id. at 4–5. Upon entry of his guilty plea as to Count 2, the Court a second time asked Movant:
“Has anyone made any promises or assurances to you, other than what’s set forth in the Plea
Agreement, to persuade you to plead guilty?” Id. at 6. Movant responded “No, Your Honor.”
Again, upon entry of his guilty plea as to Count 9, the Court for a third time asked Movant: “Has
anyone made any promises or assurances to you, other than what’s set forth in the Plea
Agreement, to persuade you to plead guilty?” Id. at 8. Movant again replied in the negative. Id.
The Court then conducted a colloquy with Movant about the potential immigration
consequences of his plea:
THE COURT: Have you and Mr. Gibson discussed the
immigration consequences of your guilty plea?
THE DEFENDANT: Yes, Your Honor.

3
App. 18

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 4 of 10
Case No. 18-cv-60138-BLOOM/Valle
THE COURT: And you understand, sir, that if you are not a citizen
of the United States, in addition to the other possible penalties you
are facing, a plea of guilty may subject you to deportation,
exclusion, or voluntary departure and prevent you from obtaining
United States citizenship?
THE DEFENDANT: Yes, Your Honor.
Plea Tr. at 9–10. At the conclusion of the plea hearing, the Court deferred sentencing until
March 9, 2018. Id. at 24.
The United States Probation Office issued a pre-sentence report on February 9, 2017.
Case No. 16-cr-60238, ECF No. [74] (“PSR”). On March 2, 2017, Movant, through counsel,
objected to the loss amounts contained in the PSR at paragraphs 26 and 34, stating that
“Defendant is responsible for $1,000.00 not $210,676.69.” Case No. 16-cr-60238, ECF No.
[100]. Prior to sentencing, both the Government and Movant moved the Court for a downward
departure. Case No. 16-cr-60238, ECF Nos. [99] and [102].
On March 9, 2017, the Court conducted Movant’s sentencing hearing. Movant, through
counsel, made several arguments in mitigation of his sentence, including Movant’s strong family
ties and personal difficulties related to his physical disability as a child, as well as Movant’s
minor role compared to his co-defendants in the scheme. Case No. 16-cr-60238, ECF No. [185]
(“Sentencing Tr.”). Counsel also argued that the loss amount should only reflect transactions
that Movant directly took part in, not the loss amount for the overall scheme. Id.
During sentencing, there were several references to Movant’s immigration status and
likely removal after serving his sentence. First, while making arguments in mitigation of his
sentence, counsel for Movant acknowledged that “[w]e know that he’s subject to removal.”
Sentencing Tr. at 10. Counsel further stated when advocating for a sentence lower than eighteen
months as recommended by the Government that: “It’s not a life-ending – certainly the message

4
App. 19

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 5 of 10
Case No. 18-cv-60138-BLOOM/Valle
has been received loud and clear. You can give him six minutes. He’s not coming back.” Id. at
39. During argument prior to the Court’s denial of Movant’s request for self-surrender, the
Government noted “although I’m not an immigration attorney, the Defendant will be removed
after his term of imprisonment . . . [and] has every incentive to just leave now.” Id. at 46.
Movant’s father also spoke on his behalf at sentencing, asking the Court to “send him home” to
Jamaica. Id. at 30. At the conclusion of the sentencing hearing, the Court varied downward and
imposed a term of incarceration of twelve months. Id. at 42.
II.

THE MOTION TO VACATE

Movant now moves to vacate his sentence pursuant to 28 U.S.C. § 2255. In his motion,
Movant argues that Mr. Gibson provided ineffective assistance of counsel because “he failed to
advise Movant that he faced mandatory deportation in entering a guilty plea to an aggravated
felony.” ECF No. [1] at 3. Movant claims that he would have never pleaded guilty had he
known he would be subject to mandatory deportation. Id. Specifically, Movant argues that Mr.
Gibson provided three assurances to Movant that convinced him to plead guilty. First Movant
argues that “Attorney Gibson assured the defendant that the dollar amount that he would be held
responsible for was for his personal conduct which was far less than $10,000.00.” Second,
Movant argues that Mr. Gibson told him that he would not be subject to deportation as a result of
his guilty plea. Id. at 4, 5–6. Third, Movant argues that Mr. Gibson also “assured” Movant that
he would be sentenced to less than one year of incarceration. Id. at 5, 9. The Government
opposes the Motion, arguing principally that Movant’s arguments in his Motion contradict the
record, including the Plea Agreement, the Factual Proffer, and the plea colloquy. See ECF No.
[7] at 5–7.

5
App. 20

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 6 of 10
Case No. 18-cv-60138-BLOOM/Valle
III.

LEGAL STANDARD

A prisoner is entitled to relief under 28 U.S.C. § 2255 if the court imposed a sentence that
(1) violated the Constitution or laws of the United States, (2) exceeded its jurisdiction, (3)
exceeded the maximum authorized by law, or (4) is otherwise subject to collateral attack. See 28
U.S.C. § 2255(a); McKay v. United States, 657 F.3d 1190, 1194 n.8 (11th Cir. 2011). “Relief
under 28 U.S.C. § 2255 is reserved for transgressions of constitutional rights and for that narrow
compass of other injury that could not have been raised in direct appeal and would, if condoned,
result in a complete miscarriage of justice.” Lynn v. United States, 365 F.3d 1225, 1232 (11th
Cir. 2004) (citations and internal quotation marks omitted).
Ineffective assistance of counsel claims are generally not cognizable on direct appeal and
are properly raised by a § 2255 motion, even if they may have been brought on direct appeal.
Massaro v. United States, 538 U.S. 500, 503 (2003); see also United States v. Franklin, 694 F.3d
1, 8 (11th Cir. 2012); United States v. Campo, 840 F.3d 1249, 1257 n.5 (11th Cir. 2016). To
demonstrate ineffective assistance of counsel, a § 2255 movant must show that (1) counsel’s
performance was deficient, falling below an objective standard of reasonableness, and (2) the
movant suffered prejudice as a result of the deficient performance. Strickland v. Washington,
466 U.S. 668, 687–88 (1984). Strickland’s two part test also applies to guilty pleas. Lafler v.
Cooper, 566 U.S. 156, 162–63 (2012) (citing Hill v. Lockhart, 474 U.S. 52, 58 (1985)).
On the first prong of the Strickland test, the movant must demonstrate that “counsel’s
representation fell below an objective standard of reasonableness.” Stickland, 466 U.S. at 688–
89. Thus, to be entitled to relief, a movant must “prove serious derelictions on the part of
counsel sufficient to show that his plea was not, after all, a knowing and intelligent act.” DownsMorgan v. United States, 765 F.2d 1534, 1539 (11th Cir. 1985) (quoting McMann v. Richardson,

6
App. 21

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 7 of 10
Case No. 18-cv-60138-BLOOM/Valle
397 U.S. 759 (1970)). On the second prong, a movant “can show prejudice by demonstrating a
reasonable probability that, but for counsel’s errors, he would not have pleaded guilty and would
have insisted on going to trial.” Lee v. United States, 137 S.Ct. 1958, 1965 (2017); see also
Carver v. United States, No. 14-15769, 2018 WL 388620, at *3 (11th Cir. Jan. 12, 2018). If a
defendant fails to show either deficient performance or prejudice, the Court need not address the
other prong. Strickland, 466 U.S. at 697.
A defendant’s statements under oath at a plea hearing give rise to a presumption that the
plea is constitutionally adequate. Downs-Morgan, 765 F.2d at 1541 n.14 (citing Blackledge v.
Allison, 431 U.S. 63, 74–75 (1977)). Thus, even when a defendant argues that he received
promises or assurances from an attorney which induced him to plead guilty and later proved to
be erroneous, a defendant’s statements under oath at a plea colloquy that he received no such
promises or assurances cures the potential prejudice. Stillwell v. United States, 709 F. App’x
585, 590 (11th Cir. 2017); see also Lee, 137 S. Ct. 1698 n.4 (noting that “[s]everal courts have
noted that a judge’s warnings at a plea colloquy may undermine a claim that the defendant was
prejudiced by his attorney’s misadvice”).
On a motion under § 2255, the Court may hold an evidentiary hearing, but need not do so
if “the motion and the files and records of the case conclusively show that the prisoner is entitled
to no relief.” 28 U.S.C. § 2255(b); see also Rosin v. United States, 786 F.3d 873, 879 (11th Cir.
2015) (finding no abuse of discretion when district court declined to hold a hearing when
movant’s allegations of prejudice were affirmatively contradicted by the record); Stillwell, 709 F.
App’x at 590 (“[T]he district court did not abuse its discretion by declining to hold an
evidentiary hearing because . . . Stillwell’s contention that he would not have pled guilty but for

7
App. 22

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 8 of 10
Case No. 18-cv-60138-BLOOM/Valle
his counsel’s advice is contradicted by the record, namely the plea agreement and the plea
colloquy.”).
IV.

ANALYSIS

Movant claims that he received three false assurances from Mr. Gibson which were not
contained in the Plea Agreement that convinced him to plead guilty. First, Movant argues that
Mr. Gibson assured him that the loss amount to was less than $10,000.00. Second, Movant
claims that Mr. Gibson assured him that Movant would not be subject to removal. And third,
Movant claims that Mr. Gibson assured him that he would not be sentenced to more than a year
of incarceration. These claims are directly contradicted by Movant’s statements under oath at
the plea colloquy. At the plea hearing, Movant stated three times that he did not receive any
assurances beyond what was contained in the Plea Agreement. Moreover, Movant averred that
he read and understood the Plea Agreement and Factual Proffer, documents which specifically
stated that Capital One had produced records demonstrating that the loss amount was over
$200,000.00, that Movant could be subject to removal based on his plea, and that no one,
including his attorney, could predict the exact sentence he would receive. See Case No. 16-cr60238, ECF No. [68] at 2–3; [101] at 21–22; [185] at 19.
The Court credits Movant’s statements under oath at the plea hearing as true. See
Blackledge v. Allison, 431 U.S. 63, 74 (1977) (“Solemn declarations in open court carry a strong
presumption of verity.”); United States v. Medlock, 12 F.3d 185, 187 (11th Cir. 1994) (“There is
a strong presumption that the statements made during the colloquy are true.”). Thus, even
assuming, without deciding, that Mr. Gibson did make these three assurances, Movant cannot
establish prejudice because he confirmed, by signing the Plea Agreement and during the
colloquy with the Court, that he understood that his guilty plea could subject him to immigration

8
App. 23

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 9 of 10
Case No. 18-cv-60138-BLOOM/Valle
consequences, including removal, and that no one, including his attorney, could predict exactly
the loss amount or the sentence to be imposed at the time of the plea. Stillwell, 709 F. App’x at
590 (11th Cir. 2017) (“Stillwell cannot establish prejudice because both the plea agreement and
the district court informed him that he could not rely on counsel’s estimated sentence, that the
court retained all sentencing discretion, and that the conduct in Counts 2 and 3 would be
considered at sentencing.”).

Because the record conclusively shows the Movant cannot

demonstrate prejudice, the Court finds that no hearing is required and the Motion must be
denied.
Movant cites to the Supreme Court’s decision in Lee v. United States, 137 S. Ct. 1958
(2017), in support of his Motion. But the “unusual circumstances” (id. at 1967) of Lee are
distinguishable. In contrast to Movant’s responses during his plea hearing, in Lee the defendant
stated on the record that any immigration consequences would affect his decision to plead guilty.
Id. at 1968. Specifically,
[w]hen the judge warned him that a conviction “could result in
your being deported,” and asked “[d]oes that at all affect your
decision about whether you want to plead guilty or not,” Lee
answered “Yes, Your Honor.” When the judge inquired “[h]ow
does it affect your decision,” Lee responded “I don’t understand,”
and turned to his attorney for advice. Only when Lee’s counsel
assured him that the judge’s statement was a “standard warning”
was Lee willing to proceed to plead guilty.
Id. (internal record citations omitted). As noted above, Movant here made no such statement on
the record. Unlike in Lee, there is no contemporaneous, “substantial[,] and uncontroverted”
evidence that Movant would not have entered his guilty plea but for the claimed assurances. The
Court “ ‘should not upset a plea solely because of post hoc assertions from a defendant,’ ” Dodd
v. United States, 709 F. App’x 593, 595 (11th Cir. 2017) (quoting Lee, 137 S. Ct. at 1967), and
the Court declines to do so here.
9
App. 24

Case 0:18-cv-60138-BB Document 10 Entered on FLSD Docket 04/23/2018 Page 10 of 10
Case No. 18-cv-60138-BLOOM/Valle
V.

CONCLUSION

Accordingly it is ORDERED AND ADJUDGED as follows:
1. Defendant’s Motion, ECF No. [1], is DENIED WITHOUT PREJUDICE;
2. All pending motions are DENIED AS MOOT; and
3. The Clerk shall CLOSE this case.
DONE AND ORDERED in Chambers at Miami, Florida, this 23rd day of April, 2018.

_________________________________
BETH BLOOM
UNITED STATES DISTRICT JUDGE

Copies to:
Counsel of Record

10
App. 25

